TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                Lack of Compensation for Unused Sick Leave
                at Retirement Has Contributed to Higher Use
                   by Employees in the Federal Employees
                            Retirement System



                                           April 24, 2008

                              Reference Number: 2008-30-093




  This report remains the property of the Treasury Inspector General for Tax Administration (TIGTA) and
   may not be disseminated beyond the Internal Revenue Service without the permission of the TIGTA.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                               DEPARTMENT OF THE TREASURY
                                                     WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                April 24, 2008


 MEMORANDUM FOR CHIEF HUMAN CAPITAL OFFICER

 FROM:                        Michael R. Phillips
                              Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Lack of Compensation for Unused Sick Leave at
                             Retirement Has Contributed to Higher Use by Employees in the
                             Federal Employees Retirement System (Audit # 200730023)

 This report presents the results of our review of sick leave usage within the Internal Revenue
 Service (IRS). The overall objective of this review was to identify the trends and patterns of IRS
 employees’ sick leave use and the policies, programs, and procedures that have been
 implemented to reduce the opportunity for abuse. This review is part of the Treasury Inspector
 General for Tax Administration Fiscal Year 2007 Annual Audit Plan coverage, under the major
 management challenge of Human Capital at the IRS.

 Impact on the Taxpayer
 A recent Congressional Research Service report1 estimated that all Federal Government
 employees will be in the Federal Employees Retirement System (FERS) by Calendar Year 2014.
 An analysis of sick leave use by IRS employees reflects that FERS employees are more likely to
 use sick leave than their counterparts in the Civil Service Retirement System, which indicates
 that FERS employees are using sick leave as a supplement to annual leave because the FERS
 does not provide a service credit in computing their retirement annuities. The higher use of sick
 leave by FERS employees has financial implications and can have a detrimental impact on
 productivity and customer service.




 1
   Congressional Research Service, Report to Congress. Sick Leave: Usage Rates and Leave Balances for Employees
 in Major Federal Retirement Systems, August 29, 2007.
                  Lack of Compensation for Unused Sick Leave at Retirement Has
                      Contributed to Higher Use by Employees in the Federal
                                  Employees Retirement System



Synopsis
Federal Government employees earn 13 days (104 hours) of sick leave each year. Any unused sick
leave remaining at the end of the year can be carried forward into the next year, and there is no limit
on the number of sick leave hours an employee can carry forward throughout his or her career.
While employees in the Civil Service Retirement System receive compensation for unused sick
leave upon retirement, employees in the FERS do not receive the same benefit. The potential
abuse of sick leave by FERS employees has become a topic of concern and controversy in the
Federal Government. Many people in the Federal Government believe that employees in the
FERS are more likely to use sick leave as a supplement to annual leave, given that they would
forfeit any unused sick leave at retirement without compensation in the form of a service credit.
Our analysis of time and attendance records for current IRS employees as of January 6, 2007,
showed that approximately 97,000 IRS employees took more than 15 million hours of sick leave
in Calendar Years 2005 and 2006, costing the IRS $450 million in salary plus lost productivity.2
Revenue officers3 alone took 959,030 hours of sick leave, resulting in $256 million in potential
lost revenue from uncollected taxes (based on an average collection rate of $267 per hour).4
According to the sick leave use information contained on the Treasury Integrated Management
Information System (TIMIS),5 IRS employees took an average of 11 days of sick leave in 2006
and had only an average balance of 43 days of accumulated sick leave at the end of the year.
A significant number of IRS employees have also been advanced sick leave because they used
all of their accumulated sick leave. For example, TIMIS data showed 6.5 percent6 of IRS
employees had a negative sick leave balance at the end of 2006. Our survey of IRS managers7
showed that 50 percent8 of the managers had approved advanced sick leave to an employee in the
past year. According to information provided by the IRS, 494 employees separated in 2006 with
38,681 hours of advanced sick leave costing around $830,000. The IRS has collected
approximately $412,000 from these former employees. Our manager survey also showed that

2
  The calculation for sick leave hours taken and associated costs did not include any sick leave taken on weekends
for employees whose tours of duty included a Saturday or Sunday.
3
  Revenue officers are IRS employees who are responsible for collecting delinquent tax accounts and securing
delinquent tax returns.
4
  We do not consider revenue officers to use more or less sick leave than other IRS employees. Instead, we cited
revenue officers as an example, based upon available data, to calculate potential lost revenue.
5
  The TIMIS is the IRS’ official automated personnel and payroll system.
6
  We did not compare the percentage of IRS employees with advanced sick leave to the percentage of employees in
other Federal Government agencies with advanced sick leave.
7
  We surveyed 295 IRS managers. The survey included 41 questions addressing administration of sick leave. The
number of managers responding varied among questions, with a minimum of 257 respondents and a maximum of
293 respondents. Appendix IV contains the detailed results of our survey.
8
  Question 28: 138 of the 274 managers who responded stated that they had approved advanced sick leave to an
employee within the past year.
                                                                                                                     2
                Lack of Compensation for Unused Sick Leave at Retirement Has
                    Contributed to Higher Use by Employees in the Federal
                                Employees Retirement System


while actions are being taken to address improper use of sick leave, managers need additional
training on sick leave administration.
We believe that the lack of compensation for unused sick leave at retirement has contributed to
the higher amount of sick leave used by FERS employees. For example, we found that FERS
employees are more likely to use sick leave than employees in the Civil Service Retirement
System, especially as they approach retirement. While we did not compare sick leave use by IRS
employees to that of employees in other Federal Government agencies, these results are
consistent with the recent Congressional Research Service report and indicate that changing the
FERS to grant employees some form of compensation for unused sick leave at retirement might
be warranted, if the change is determined to be less expensive than the current policy. The day
of the week also had a significant impact on sick leave use. Specifically, sick leave use is
highest on Mondays and Tuesdays. Other factors that can affect sick leave use besides an
employee’s retirement plan include gender, age, grade, and position.

Recommendations
We recommended that the Chief Human Capital Officer ensure that (1) all IRS managers receive
training on updated leave policies to ensure proper sick leave administration and increased
awareness of possible abuse, and (2) additional analysis is performed to identify factors
contributing to the advancement of sick leave to a significant number of IRS employees and to
identify what measures can be taken to both reduce the number of employees that separate with a
negative sick leave balance and increase the collection of outstanding debts.

Response
The Chief Human Capital Officer responded that he appreciated our review of IRS sick leave
use. He also agreed to all of our recommendations and outlined the corrective actions that the
IRS is committed to taking. Among other things, the IRS is committed to updating its sick leave
policies, procedures, and training. The IRS will also review negative sick leave balances and use
the results to provide guidance on advancing sick leave and identifying abuse so corrective
actions can be taken.
Even though actions are being taken to implement all our recommendations, the Chief Human
Capital Officer criticized our report in five areas. First, he stated the report is not clear about
how training will resolve the issue of higher use of sick leave by employees covered by FERS.
Second, he indicated our report provides no evidence that supports sick leave abuse in the IRS.
Third, he criticized us for not providing benchmark information from other agencies or the
private sector for comparability purposes. Fourth, he thought that presenting the use of sick
leave by age and gender is misleading without an analysis of contributing factors. Fifth, he


                                                                                                      3
                Lack of Compensation for Unused Sick Leave at Retirement Has
                    Contributed to Higher Use by Employees in the Federal
                                Employees Retirement System


believes that we did not sufficiently emphasize the impact of legislative and regulatory changes
on sick leave. Management’s complete response to the draft report is included as Appendix V.

Office of Audit Comment
While we are pleased that the IRS is implementing all of our recommendations, some comments
are warranted to clarify the concerns expressed by the Chief Human Capital Officer. We
acknowledge that training alone will not completely resolve the issue of higher sick leave use by
FERS employees and revised the text accordingly for clarity purposes (page 15). However, the
fact that a number of IRS managers believe it is acceptable to improperly use sick leave suggests
the need for additional guidance and training.
We agree that the report does not provide evidence of sick leave abuse in the IRS nor does it
provide benchmark information since this was not the intent of the review. As stated in the
report, our objective was to identify the trends and patterns of sick leave use in the IRS and the
policies, programs, and procedures that have been implemented to reduce the opportunity for
abuse. We do not agree that presenting the use of sick leave by age and gender is misleading.
We reported that other factors such as gender, age, grade, and position can affect sick leave use
besides an employee’s retirement plan.
Finally, we believe we sufficiently addressed legislative and regulatory changes to expand the
criteria for using sick leave. As stated in our report, the justification for using sick leave has
been expanded to permit its use to care for a family member and for bereavement purposes.
However, regular sick leave is still the primary category used by IRS employees when taking
sick leave.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Acting Assistant Inspector General for Audit (Small Business and Corporate
Programs), at (202) 622-8510.




                                                                                                     4
                      Lack of Compensation for Unused Sick Leave at Retirement Has
                          Contributed to Higher Use by Employees in the Federal
                                      Employees Retirement System




                                              Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 4
          Sick Leave Use Was Higher for Employees in the Federal Employees
          Retirement System ........................................................................................Page 5
          Sick Leave Use Was Highest on Mondays or on Tuesdays Following
          a Monday Holiday.........................................................................................Page 7
          Employee Gender, Age, Grade, and Position Also Affected Sick Leave
          Use ................................................................................................................Page 8
          Regular Sick Leave Was Used Most Often, Despite the Expansion
          of Sick Leave by Family-Friendly Leave Policies........................................Page 13
          A Survey of Managers Reflects Actions Have Been Taken to Address
          Improper Use of Sick Leave, but Additional Training Is Needed ................Page 14
                     Recommendation 1:........................................................Page 15

                     Recommendation 2:........................................................Page 16


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 18
          Appendix II – Major Contributors to This Report ........................................Page 20
          Appendix III – Report Distribution List .......................................................Page 21
          Appendix IV – Results of Manager Survey..................................................Page 22
          Appendix V – Management’s Response to the Draft Report .......................Page 32
         Lack of Compensation for Unused Sick Leave at Retirement Has
             Contributed to Higher Use by Employees in the Federal
                         Employees Retirement System




                        Abbreviations

ALERTS            Automated Labor and Employee Relations Tracking System
CSRS              Civil Service Retirement System
FERS              Federal Employees Retirement System
IRS               Internal Revenue Service
SETR              Single Entry Time Reporting
TIMIS             Treasury Integrated Management Information System
                  Lack of Compensation for Unused Sick Leave at Retirement Has
                      Contributed to Higher Use by Employees in the Federal
                                  Employees Retirement System




                                            Background

Federal Government employees earn 13 days (104 hours) of sick leave each year. Any unused sick
leave remaining at the end of the year can be carried forward into the next year, and there is no limit
on the number of sick leave hours that an employee can carry forward throughout his or her career.
Prior to 1993, employees were authorized to use sick leave primarily for their own personal
illness. Enactment of the Family and Medical Leave Act of 1993 1 and the Federal Employees
Family Friendly Leave Act 2 expanded the circumstances for which an employee may use sick
leave. For example, employees may now use sick leave to pursue adoptions, to provide general
care for a family member who is ill or receiving medical examination or treatment, to care for
seriously ill family members, or to make arrangements necessitated by the death of a family
member or attend the funeral of a family member, in addition to using it for personal illness.
The Federal Government has been concerned about the use of sick leave by its employees for
decades. Abuse of sick leave occurs when employees use the leave for conditions not authorized in
the guidelines established by public law. Sick leave abuse is a serious problem that can adversely
affect an agency’s productivity and its ability to achieve stated goals and objectives. As a result,
proper administration of sick leave by Internal Revenue Service (IRS) managers is essential to
prevent its abuse by IRS employees. Proper administration of sick leave by IRS managers includes:
     •   Informing employees of the conditions authorized for using sick leave and the proper
         procedures for requesting sick leave.
     •   Verifying the circumstances of the absence, to justify approval of an employee’s request
         to use sick leave.
     •   Maintaining accurate records of sick leave use and ensuring that sick leave is charged
         appropriately in the timekeeping system.
     •   Being alert to possible abuse of sick leave, addressing any concerns with employees
         suspected of improperly using sick leave, and initiating disciplinary action for
         unauthorized absences or failure to follow established leave procedures.
Many people in the Federal Government have long suspected that the lack of a service credit in
computing retirement annuities for unused sick leave at retirement for employees in the Federal
Employees Retirement System (FERS) contributes to the higher use of sick leave by these


1
 Pub. L. No. 103-3, 107 Stat. 6 (codified as amended at 29 U.S.C. §§ 2601-2654 (2006)).
2
 Pub. L. No. 103-388, 108 Stat. 4079 (1994) (amended 5 U.S.C. § 6307) (expired 1997). Prior to its expiration, the
Office of Personnel Management issued final regulations at 5 C.F.R. §§ pt. 630, subpt. D in order to continue to
permit the use of sick leave for family care and bereavement purposes.
                                                                                                          Page 1
                  Lack of Compensation for Unused Sick Leave at Retirement Has
                      Contributed to Higher Use by Employees in the Federal
                                  Employees Retirement System



employees. Prior to the establishment of the FERS on January 1, 1987, Federal Government
employees were in the Civil Service Retirement System (CSRS). Until enactment of the Civil
Service Retirement Amendments of 1969 (hereafter referred to as Public Law 91-93)3 on
October 20, 1969, employees in the CSRS had no incentive not to use sick leave because they
had to forfeit any unused sick leave at retirement. The Civil Service Commission (now the
Office of Personnel Management) estimated that, prior to enactment of Public Law 91-93, about
one-half of all retiring Federal Government employees had a zero sick leave balance. Public
Law 91-93 provided future retiring CSRS employees with a service credit for accumulated sick
leave in computing their civil service retirement annuities. In 1985, the General Accounting
Office (now the Government Accountability Office) was asked to determine whether the 1969
law authorizing a retirement credit for unused sick leave had the intended effect of encouraging
employees to use sick leave appropriately. In June 1986, the Government Accountability Office
reported4 that employees retiring in 1984 and 1985 had a significantly higher average balance of
unused sick leave than those who retired in 1968, which it attributed in part to the change in the
law.
Unlike CSRS employees, FERS employees do not receive compensation in the form of a service
credit at retirement for unused sick leave. Almost all Federal Government employees hired after
December 31, 1983, are in the FERS. With the continual retirement of CSRS employees, the
percentage of FERS employees has increased. A recent Congressional Research Service report5
estimated that all Federal Government employees will be in the FERS by Calendar Year 2014.
With many FERS employees now becoming eligible for retirement, there is once again growing
concern within the Federal Government that many employees are opting to use their accumulated
sick leave rather than forfeiting it at retirement. According to the Congressional Research
Service report, a 2006 Office of Personnel Management study found that FERS employees
eligible to retire or nearly eligible to retire use more sick leave per year, on average, than CSRS
employees in these same categories. Our analysis focused on comparing sick leave use by FERS
employees to that of CSRS employees. We did not examine the specific circumstances
surrounding the actual sick leave taken. Consequently, we did not conclude whether the leave
was proper or improper.
This review was performed at the IRS National Headquarters in Washington, D.C., in the Human
Capital Office during the period March through October 2007. We conducted this performance
audit in accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objective. We believe that


3
  Pub. L. No. 91-93, 83 Stat. 136 (codified as amended in scattered sections of 5 U.S.C. §§ 8331-8351 (2006)).
4
  Federal Workforce: Retirement Credit has Contributed to Reduced Sick Leave Usage (GAO/GGD-86-77BR,
dated June 1986).
5
  Congressional Research Service, Report to Congress. Sick Leave: Usage Rates and Leave Balances for Employees
in Major Federal Retirement Systems, August 29, 2007.
                                                                                                       Page 2
               Lack of Compensation for Unused Sick Leave at Retirement Has
                   Contributed to Higher Use by Employees in the Federal
                               Employees Retirement System



the evidence obtained provides a reasonable basis for our findings and conclusions based on our
audit objective. Detailed information on our audit objective, scope, and methodology is
presented in Appendix I. Major contributors to the report are listed in Appendix II.




                                                                                         Page 3
                  Lack of Compensation for Unused Sick Leave at Retirement Has
                      Contributed to Higher Use by Employees in the Federal
                                  Employees Retirement System




                                      Results of Review

Our analysis of time and attendance records for current IRS employees as of January 6, 2007,
showed that approximately 97,000 IRS employees took more than 15 million hours of sick leave
in Calendar Years 2005 and 2006, costing the IRS $450 million in salary plus lost productivity.6
Revenue officers7 alone took 959,030 hours of sick leave, resulting in $256 million in potential
lost revenue from uncollected taxes (based on an average collection rate of $267 per hour).8
According to the sick leave use information contained on the Treasury Integrated Management
Information System (TIMIS),9 IRS employees took an average of 11 days of sick leave in 2006
and had only an average balance of 43 days of accumulated sick leave at the end of the year.
A significant number of IRS employees have also been advanced sick leave because they used
all of their accumulated sick leave. For example, TIMIS data showed 6.5 percent10 of IRS
employees had a negative sick leave balance at the end of 2006. Our survey of IRS managers11
showed 50 percent12 of the managers had approved advanced sick leave to an employee in the
past year. According to information provided by the IRS, 494 employees separated in 2006 with
38,681 hours of advanced sick leave costing around $830,000. The IRS has collected
approximately $412,000 from these former employees. Our manager survey also showed that,
while actions are being taken to address improper use of sick leave, managers need additional
training on sick leave administration.
In addition to the salary costs and lost productivity, non-judicious use of sick leave may have a
detrimental impact on the IRS’ ability to accomplish its mission. We believe that the lack of
compensation for unused sick leave at retirement has contributed to the higher amount of sick
leave used by FERS employees. For example, we found that FERS employees are more likely
than CSRS employees to use sick leave, especially as they approach retirement. While we did


6
  The calculation for sick leave hours taken and associated costs did not include any sick leave taken on weekends
for employees whose tours of duty included a Saturday or Sunday.
7
  Revenue officers are IRS employees who are responsible for collecting delinquent tax accounts and securing
delinquent tax returns.
8
  We do not consider revenue officers to use more or less sick leave than other IRS employees. Instead, we cited
revenue officers as an example, based upon available data, to calculate potential lost revenue.
9
  The TIMIS is the IRS’ official automated personnel and payroll system.
10
   We did not compare the percentage of IRS employees with advanced sick leave to the percentage of employees in
other Federal Government agencies with advanced sick leave.
11
   We surveyed 295 IRS managers. The survey included 41 questions addressing administration of sick leave. The
number of managers responding varied between questions with a minimum of 257 respondents and a maximum of
293 respondents. Appendix IV contains the detailed results of our survey.
12
   Question 28: 138 of the 274 managers that responded stated they had approved advanced sick leave to an
employee within the past year.
                                                                                                          Page 4
                   Lack of Compensation for Unused Sick Leave at Retirement Has
                       Contributed to Higher Use by Employees in the Federal
                                   Employees Retirement System



not compare sick leave use by IRS employees to that of employees in other Federal Government
agencies, these results are consistent with a recent Congressional Research Service report and
indicate that changing the FERS to grant employees some form of compensation for unused sick
leave at retirement might be warranted, if the change is determined to be less expensive than the
current policy. The day of the week also had a significant impact on sick leave use.
Specifically, sick leave use is highest on Mondays and Tuesdays. Other factors that can affect
sick leave use besides an employee’s retirement plan include gender, age, grade, and position.

Sick Leave Use Was Higher for Employees in the Federal Employees
Retirement System
According to TIMIS data, the IRS had 100,954 current employees as of January 6, 2007.13 As
shown in Figure 1, 78,643 (78 percent) were in the FERS and 21,200 (21 percent) were in the
CSRS. Due to the relatively small number of employees involved, we did not attempt to
determine the reason why 1,111employees (1 percent) were not reflected in either FERS or
CSRS according to TIMIS data. With the continual retirement of CSRS employees, the
percentage of IRS employees in the FERS will continue to grow.
                   Figure 1: Distribution of Employees by Retirement Plan




                        78,643
                         78%



                                                                                            21,200
                                                                                             21%
                                                                              1,111
                                                                               1%
                                                FERS      CSRS      Other

               Source: Our analysis of TIMIS data, as of January 6, 2007.

Our analysis of the TIMIS data for Calendar Year 2006 showed that FERS employees used more
sick leave than CSRS employees during the year.14 For example, FERS employees took an
average of 11.27 days of sick leave for the year, while CSRS employees took an average of only

13
  The number presented includes all IRS employees (full-time, part-time, seasonal, etc.).
14
  The analysis of TIMIS data included only employees that earned 104 hours (13 days) of sick leave during 2006.
Therefore, the analysis included full-time employees and full-time seasonal employees, but did not include part-time
employees.
                                                                                                                Page 5
                       Lack of Compensation for Unused Sick Leave at Retirement Has
                           Contributed to Higher Use by Employees in the Federal
                                       Employees Retirement System



10.83 days. Figure 2 illustrates the difference in sick leave use, based on years of service,
between employees in the FERS and the CSRS.
             Figure 2: Average Number of Sick Leave Days Used in 2006 by
                         Retirement Plan and Years of Service

                         14

                         12

                         10

                          8
                Days




                          6

                          4

                          2

                          0
                                <10 years        10-19 years       20-29 years     30 years or more

                        CSRS       8.98             11.13             10.62              11.10
                        FERS      10.64             11.41             11.70              13.23


             Source: Our analysis of TIMIS data, as of January 6, 2007.15

The disparity in sick leave days taken by FERS and CSRS employees is greatest as employees
approach retirement eligibility. For example, there is less than a half-day use difference for
employees with 10 years through 19 years of service. However, that difference increases to
more than 2 days for employees with 30 or more years of service. This difference indicates that
FERS employees are more inclined to use sick leave as they near retirement because any unused
accumulated sick leave will be forfeited without compensation when they retire.
The higher use of sick leave by FERS employees over time created a larger disparity in the
average balance of accumulated sick leave between CSRS and FERS employees. For example,
as shown in Figure 3, the average balance of accumulated sick leave for CSRS employees
exceeded the amount for FERS employees by only 4 days for employees with fewer than



15
  CSRS employees account for a small percentage of the total population of IRS employees with fewer than
20 years of service. There are only 273 CSRS employees with fewer than 20 years of service. FERS employees
account for a small percentage of the total population of IRS employees with 30 years or more of service. There are
only 538 FERS employees with 30 years or more of service.
                                                                                                           Page 6
                       Lack of Compensation for Unused Sick Leave at Retirement Has
                           Contributed to Higher Use by Employees in the Federal
                                       Employees Retirement System



10 years of service. However, the difference in the average balance of accumulated sick leave
had increased to 36 days for employees with 30 or more years of service.
             Figure 3: Average Balance of Accumulated Sick Leave Days by
                         Retirement Plan and Years of Service

                         120

                         100

                         80
                Days




                         60

                         40

                         20

                          0
                                <10 years        10-19 years       20-29 years     30 years or more

                        CSRS      14.40             19.37             67.40             117.52
                        FERS      10.80             28.68             42.49             81.20


             Source: Our analysis of TIMIS data, as of January 6, 2007.

Sick Leave Use Was Highest on Mondays or on Tuesdays Following a
Monday Holiday
Our analysis of biweekly time and attendance records input to the IRS’ Single Entry Time
Reporting (SETR)16 system for Calendar Years 2005 and 2006 showed that both FERS and
CSRS employees most often took sick leave on Mondays or on Tuesdays following a Monday
holiday. As shown in Figure 4, 24 percent of all sick leave taken by employees during non-
holiday weeks is on Monday. For weeks that have a holiday falling on a Monday, 27 percent of
all sick leave taken is on Tuesday. Sick leave use by employees decreases during the remainder
of the week.




16
  The SETR system provides an online timekeeping function that allows the virtual timekeeper to enter, validate,
and transmit timecard information to the manager for an online approval.
                                                                                                           Page 7
                Lack of Compensation for Unused Sick Leave at Retirement Has
                    Contributed to Higher Use by Employees in the Federal
                                Employees Retirement System



            Figure 4: Percentage of Sick Leave Used by Day of the Week

                       30%


                       20%


                       10%


                        0%
                                Monday       Tuesday      Wednesday        Thursday   Friday
         Non-Holiday Week         24%           21%           19%            18%      17%
         Holiday Week             7%            27%           25%            22%      19%

     Source: Our analysis of SETR data for Calendar Years 2005 and 2006.

We also found extreme cases of questionable sick leave use. For example, 1 employee used sick
leave on 13 of the 14 Tuesdays following a Monday holiday during the 2-year period.

Employee Gender, Age, Grade, and Position Also Affected Sick Leave
Use
In addition to the retirement system, an IRS employee’s gender, age, grade, and position affected
the use of sick leave. As shown in Figures 5 and 6, females averaged a higher number of sick
leave days taken in Calendar Year 2006 than males. The disparity was greatest as they
approached retirement eligibility. As shown in Figure 7, the higher use of sick leave by females
over time created a larger disparity in the average balance of accumulated sick leave between
males and females. As shown in Figure 8, the difference in sick leave balances between male
and female employees increased from 28 days for employees with 10-19 years of service to 96
days for employees with 30 or more years of service.




                                                                                               Page 8
         Lack of Compensation for Unused Sick Leave at Retirement Has
             Contributed to Higher Use by Employees in the Federal
                         Employees Retirement System



Figure 5: Average Number of Sick Leave Days Used in 2006 by
               Gender and Retirement System

                       12.00

                        9.00
           Days




                        6.00

                        3.00

                        0.00
                                       Female                      Male

                       CSRS            11.58                       9.54
                       FERS            11.68                       10.48

         Source: Our analysis of TIMIS data, as of January 6, 2007.

Figure 6: Average Number of Sick Leave Days Used in 2006 by
                Gender and Years of Service

                  14

                  12

                  10

                  8
  Days




                  6

                  4

                  2

                  0
                           <10 years      10-19 years   20-29 years        30 years or more

           Female              11.29           11.77       11.66                12.15
           Male                9.47            10.66       10.46                10.15


Source: Our analysis of TIMIS data, as of January 6, 2007.




                                                                                              Page 9
         Lack of Compensation for Unused Sick Leave at Retirement Has
             Contributed to Higher Use by Employees in the Federal
                         Employees Retirement System



Figure 7: Average Balance of Accumulated Sick Leave Days by
               Gender and Retirement System

          150.00

          120.00

           90.00
  Days




           60.00

           30.00

            0.00
                                Female                              Male
           CSRS                 55.41                               144.74
           FERS                 18.41                               44.57

Source: Our analysis of TIMIS data, as of January 6, 2007.

Figure 8: Average Balance of Accumulated Sick Leave Days by
                Gender and Years of Service


            160

            140

            120

            100
  Days




             80

             60

             40

             20

              0
                    <10 years        10-19 years      20-29 years      30 years or more

          Female      7.17               19.27           36.10               71.07
          Male        17.24              47.68           86.32               167.32


Source: Our analysis of TIMIS data, as of January 6, 2007.




                                                                                          Page 10
                    Lack of Compensation for Unused Sick Leave at Retirement Has
                        Contributed to Higher Use by Employees in the Federal
                                    Employees Retirement System



For both FERS and CSRS employees, we found that the age of the employee also can affect the
amount of sick leave taken each year. As shown in Figure 9, the number of sick leave days taken
generally increased as the employee aged. For example, employees between the ages of 20 and
30 took an average of 10.64 days of sick leave in 2006, while those over age 60 took 12.73 days
of sick leave. The average balance of accumulated sick leave also increased as the age of the
employee increased, except for employees who were 60 or more years of age. The employees
with the highest amount of accumulated sick leave were between the ages of 55 and 60, with an
average balance of 66.55 days.
Figure 9: Average Number of Sick Leave Days Used in 2006 and Average Balance
                   of Accumulated Sick Leave Days by Age

                                     70
                                     60
                                     50
             Days




                                     40
                                     30
                                     20
                                     10
                                      0
                                             < 20   20-29   30-39   40-49   50-54   55-59   60 or
                                            years   years   years   years   years   years   more

               Average Days of Sick Leave   7.50    10.64   11.21   10.76   10.91   11.41   12.73
               Used in 2006
               Average Days of Sick Leave   0.25    7.64    13.46   34.80   54.96   66.55   55.85
               Balance


            Source: Our analysis of TIMIS data, as of January 6, 2007.

The pay grade17 and position of an employee also affected the amount of sick leave taken each
year. As shown in Figure 10, lower grade employees averaged more sick leave taken in 2006
and had a lower amount of accumulated sick leave than their higher grade counterparts. IRS
executives used the least amount of sick leave and had the highest balance of accumulated sick
leave. For example, employees in grades 2-4 took 11.23 days of sick leave in 2006, while IRS
executives took only 7.33 days. The disparity in the accumulated sick leave balances was much
more significant. However, many employees in the higher grade positions have likely been
employed by the IRS for a longer period of time.



17
  The pay grade is used in determining an employee’s salary based on the General Schedule pay plan, General
Management pay plan, and Internal Revenue pay plan. The Internal Revenue pay grades were converted to match
those on the General Schedule.
                                                                                                    Page 11
                    Lack of Compensation for Unused Sick Leave at Retirement Has
                        Contributed to Higher Use by Employees in the Federal
                                    Employees Retirement System



               Figure 10: Average Number of Sick Leave Days Used in 2006 and
               Average Balance of Accumulated Sick Leave Days by Pay Grade


                                         180
                                         160
                                         140
                                         120
        Days




                                         100
                                          80
                                          60
                                          40
                                          20
                                           0
                                                  GS 2-4   GS 5-7   GS 8-10   GS 11-13   GS 14-15    ES

                Average Days of Sick Leave Used   11.23    11.82     12.13     10.88       8.79      7.33
                in 2006
                Average Days of Sick Leave        14.28    16.34     19.40     56.63      109.06    184.06
                Balance


     Source: Our analysis of TIMIS data, as of January 6, 2007.

     When analyzing sick leave usage by position, we found that employees in a team leader or
     managerial position took less sick leave in the year and maintained a higher balance of
     accumulated sick leave.18 As shown in Figure 11, IRS employees not in a lead, team leader,
     or managerial position took an average of 11.47 days of sick leave in 2006 and had a balance
     of only 34.93 days, while employees serving as a supervisor took an average of only
     9.21 days of sick leave and had an average balance of 89.10 days of accumulated sick leave.




18
  Employee positions include (1) lead and team leader, who are work leaders who, as a regular and recurring part of
their assignment, lead three or more employees and are responsible to their supervisors for ensuring that the work
assignments of the other employees of the team are carried out; (2) management official, who is an individual who
formulates, determines, or influences the policies of the agency; and (3) supervisor, who is an individual employed
by an agency having authority in the interest of the agency to hire, direct, assign, promote, reward, transfer,
furlough, layoff, recall, suspend, discipline, or remove employees. The other category represents all employees not
classified as a lead, team leader, management official, or supervisor.
                                                                                                             Page 12
                 Lack of Compensation for Unused Sick Leave at Retirement Has
                     Contributed to Higher Use by Employees in the Federal
                                 Employees Retirement System



            Figure 11: Average Number of Sick Leave Days Used in 2006 and
              Average Balance of Accumulated Sick Leave Days by Position

                            100
                             75
     Days




                             50
                             25
                              0
                                                                               Management
                                      Other         Lead         Team Leader              Supervisor
                                                                                 Official
       Average Days of Sick Leave     11.47         11.99           9.55          9.55       9.21
       Used in 2006
       Average Days of Sick Leave     34.93         22.83           89.37         88.88      89.10
       Balance

    Source: Our analysis of TIMIS data, as of January 6, 2007.

Regular Sick Leave Was Used Most Often, Despite the Expansion of
Sick Leave by Family-Friendly Leave Policies
In recent years, the Federal Government has expanded the justification for using sick leave to
permit its use to care for a family member and for bereavement purposes. Figure 12 shows that,
even with the expanded justification for using sick leave under the family-friendly leave policies,
regular sick leave is still the primary category used by IRS employees when taking sick leave.
             Figure 12: Percentage of Sick Leave Hours Taken by Category


                                         90%




                                                                      10%



                               Regular Sick Leave    Family Friendly Sick Leave

               Source: Our analysis of SETR data for Calendar Years 2005 and 2006.

                                                                                                     Page 13
                  Lack of Compensation for Unused Sick Leave at Retirement Has
                      Contributed to Higher Use by Employees in the Federal
                                  Employees Retirement System



A Survey of Managers Reflects Actions Have Been Taken to Address
Improper Use of Sick Leave, but Additional Training Is Needed
To ensure proper administration of sick leave, managers must be alert to possible abuse of sick
leave, raise their concerns with employees suspected of improperly using sick leave, and initiate
disciplinary action for unauthorized absences or failure to follow established leave procedures.
Our survey of IRS managers19 indicates that they are noticing improper use of sick leave by
employees and are taking actions to address it. For example, managers have:
     •   Counseled employees for improper use of sick leave (37 percent).20
     •   Denied sick leave (22 percent).21
     •   Placed employees on leave restriction (18 percent).22
     •   Initiated disciplinary action on improper use of sick leave (10 percent).23
However, our survey of IRS managers also reflected that additional training on administration of
sick leave is needed to increase awareness of the abusive use of sick leave and help minimize
improper use of sick leave. Managers believe that:
     •   It is acceptable for employees to use sick leave in lieu of annual leave when they
         approach retirement or separation (12 percent).24
     •   Employees should be allowed to use sick leave whatever the situation (11 percent).25
     •   They have not received adequate training in administering employee use of sick leave
         (12 percent).26


19
   We surveyed 295 IRS managers. The survey included 41 questions addressing administration of sick leave. The
number of managers responding varied among questions, with a minimum of 257 respondents and a maximum of
293 respondents. Appendix IV contains the detailed results of our survey.
20
   Question 24: 101 of the 273 managers who responded stated that they had counseled employees for improper use
of sick leave within the past year.
21
   Question 25: 59 of the 273 managers who responded stated that they had denied a request for sick leave within
the past year.
22
   Question 26: 50 of the 273 managers who responded stated that they had had an employee on leave restriction
within the past year.
23
   Question 27: 26 of the 274 managers who responded stated that they had initiated a disciplinary action based on
improper use of sick leave within the past year.
24
   Question 2: 35 of the 292 managers who responded stated that they strongly agree or somewhat agree it is
acceptable for employees to use sick leave in lieu of annual leave as they approach retirement or separation.
25
   Question 35: 31 of the 273 managers who responded stated that they strongly agree or somewhat agree that
employees should be allowed to use sick leave, whatever the situation.
26
   Question 1: 36 of the 293 managers who responded stated that they strongly disagree or somewhat disagree they
have received adequate training for administering employee sick leave.
                                                                                                         Page 14
                   Lack of Compensation for Unused Sick Leave at Retirement Has
                       Contributed to Higher Use by Employees in the Federal
                                   Employees Retirement System



In addition, we found that the Automated Labor and Employee Relations Tracking System
(ALERTS)27 includes very few cases for employees that we identified with questionable sick
leave use patterns during our analysis of SETR data for Calendar Years 2005 and 2006. We
considered employees to have questionable sick leave patterns if they took sick leave on 7 or
more of the possible 14 Tuesdays following a Monday holiday or used sick leave on the same
day (Monday, Tuesday, Wednesday, Thursday, or Friday) 45 or more times within the 2-year
period. We identified 214 employees with questionable sick leave usage. However, we were
able to locate only 4 case files on the ALERTS.28 The low number of cases may be attributable
to the fact that managers can counsel employees and place employees on leave restriction
without establishing an ALERTS case file. Additional information was also provided by
responsible officials to support that managers are taking steps to address improper use of
sick leave. Specifically, management stated that 2,743 cases (25 percent) of the
10,803 administrative misconduct cases entered on ALERTS in Calendar Years 2005 and 2006
included absence and leave as an issue.
The cost of sick leave is substantial, and we believe that the higher use of sick leave by FERS
employees can adversely affect morale, productivity, and the IRS’ efforts to accomplish its
mission. The results of our analysis of sick leave use and the manager survey indicate that
additional training is needed to ensure proper administration of sick leave. Representatives from
the Employee Support Services organization explained that the Time and Leave Handbook and
IRS guidelines are being updated, due to recent changes in leave policies, and they hope to
provide new managers with online training after the guidelines have been updated. We suggest
that once the guidelines have been updated, current managers should be provided the online
training. However, we acknowledge that training alone will not completely resolve the issue of
higher sick leave use by FERS employees.

Recommendations
Recommendation 1: The Chief Human Capital Officer should ensure that all IRS managers
receive training on updated leave policies to ensure proper sick leave administration and
increased awareness of possible abuse.
        Management's Response: The Chief Human Capital Officer agreed with this
        recommendation. The IRS will update regulatory and policy guidance on sick leave to
        assist managers in properly administering sick leave provisions and will revise the
        administrative procedures for managers to clearly address managerial responsibilities and


27
   The ALERTS tracks labor/employee relations case data. It uses a single, standardized record format that is the
repository of case data for all official employee misconduct and labor-management relations cases processed by the
IRS.
28
   When using the ALERTS to identify associated case files for employees we considered to have questionable sick
leave patterns, we matched against all ALERTS case files categorized as absence and leave issues.
                                                                                                         Page 15
               Lack of Compensation for Unused Sick Leave at Retirement Has
                   Contributed to Higher Use by Employees in the Federal
                               Employees Retirement System



       instructions regarding sick leave approval. In addition, the IRS will develop online
       managerial training on the new procedures and review the curriculum for mandatory
       frontline manager training to ensure that updated leave policies are incorporated and
       effectively communicated. However, the Chief Human Capital Officer stated the report
       is not clear about how training will resolve the issue of higher use of sick leave by
       employees covered by FERS.
       Office of Audit Comment: We revised the report to clarify that we acknowledge
       training alone will not completely resolve the issue of higher sick leave use by FERS
       employees. However, the fact that a number of IRS managers believe it is acceptable to
       improperly use sick leave suggests the need for additional guidance and training.
Recommendation 2: The Chief Human Capital Officer should ensure that additional analysis
is performed to identify factors contributing to the advancement of sick leave to a significant
number of IRS employees and to identify measures that can be taken to both reduce the number
of employees that separate with a negative sick leave balance and increase the collection of
outstanding debts.
       Management's Response: The Chief Human Capital Officer agreed with this
       recommendation. The IRS will review data on current and separated employees with
       negative sick leave balances and will provide guidance regarding criteria for approving
       advanced sick leave as well as appropriate management actions for identifying sick leave
       abuse and taking corrective action. The IRS also provided written procedures on
       employee separations involving negative leave balances to payroll center staff to enhance
       the IRS’ ability to expeditiously identify employees who have separated with a negative
       sick leave balance and increase the likelihood of collecting outstanding debts. The IRS
       will review these new procedures to determine their impact on outstanding sick leave
       balances due. However, the Chief Human Capital Officer also indicated our report
       provides no evidence that supports sick leave abuse in the IRS and criticized us for not
       providing benchmark information from other agencies or the private sector for
       comparability purposes. In addition, the Chief Human Capital Officer thought that
       presenting the use of sick leave by age and gender is misleading without an analysis of
       contributing factors and believes that we did not sufficiently emphasize the impact of
       legislative and regulatory changes or IRS contractual obligations on sick leave.
       Office of Audit Comment: We agree that the report does not provide evidence of sick
       leave abuse in the IRS nor does it provide benchmark information since this was not the
       intent of the review. As stated in the report, our objective was to identify the trends and
       patterns of sick leave use in the IRS and the policies, programs, and procedures that have
       been implemented to reduce the opportunity for abuse. We do not agree that presenting
       the use of sick leave by age and gender is misleading. We reported that other factors
       such as gender, age, grade, and position can affect sick leave use besides an employee’s
       retirement plan. Finally, we believe we sufficiently addressed legislative and regulatory

                                                                                          Page 16
        Lack of Compensation for Unused Sick Leave at Retirement Has
            Contributed to Higher Use by Employees in the Federal
                        Employees Retirement System



changes to expand the criteria for using sick leave. As stated in our report, the
justification for using sick leave has been expanded to permit its use to care for a family
member and for bereavement purposes. However, regular sick leave is still the primary
category used by IRS employees when taking sick leave. We did not address contractual
obligations that the IRS has with the National Treasury Employees Union since these
should not affect sick leave usage by IRS employees.




                                                                                   Page 17
                   Lack of Compensation for Unused Sick Leave at Retirement Has
                       Contributed to Higher Use by Employees in the Federal
                                   Employees Retirement System



                                                                                                  Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this review was to identify the trends and patterns of IRS employees’
sick leave use and the policies, programs, and procedures that have been implemented to reduce
the opportunity for abuse. To accomplish this objective, we:
I.      Profiled the use of sick leave by IRS employees and analyzed it for patterns.
        A. Obtained personnel and payroll information on the TIMIS1 for current IRS employees
           as of January 6, 2007. We assessed the reliability of the TIMIS data supplied to us by
           the IRS by comparing the number of employees in the TIMIS data against the count
           of employees obtained by conducting an online query of the TIMIS database. The
           TIMIS data appeared to be reasonably accurate for the purposes of this audit, and we
           performed no additional data validity tests.
        B. Obtained biweekly time and attendance records processed on the SETR2 system for
           all IRS employees in Calendar Years 2005 and 2006. We assessed the reliability of
           the SETR system data supplied to us by the IRS by comparing the number of
           employees in the SETR system data against the count of employees obtained by
           conducting an online query of the TIMIS database. The SETR system data appeared
           to be reasonably accurate for the purposes of this audit, and we performed no
           additional data validity tests.
        C. Analyzed employee leave data on the SETR system and the TIMIS to determine if
           patterns exist in sick leave use and to identify trends in sick leave use by occupation,
           grade, retirement system, gender, location, service computation date,3 and birth date.
II.     Analyzed ALERTS4 data provided to us by the IRS to identify IRS employees with
        reported labor relations problems related to leave use. We matched employees on the
        ALERTS database with the employees’ SETR system leave data to identify patterns and
        trends. The ALERTS data appeared to be reasonably accurate for the purposes of this
        audit, and we performed no additional data validity tests.

1
  The TIMIS is the IRS’ official automated personnel and payroll system.
2
  The SETR system provides an online timekeeping function that allows the virtual timekeeper to enter, validate, and
transmit timecard information to the manager for an online approval.
3
  Service computation date is a tool used to calculate amounts of government service and is used to determine how
much service is creditable toward eligibility for a specific benefit or entitlement.
4
  The ALERTS tracks labor/employee relations case data. It uses a single, standardized record format that is the
repository of case data for all official employee misconduct and labor-management relations cases processed by the
IRS.
                                                                                                          Page 18
                   Lack of Compensation for Unused Sick Leave at Retirement Has
                       Contributed to Higher Use by Employees in the Federal
                                   Employees Retirement System



III.     Surveyed 295 IRS managers5 to determine how sick leave use is managed within their
         programs and whether they have experienced any problems or weaknesses in
         administering sick leave policies.
IV.      Determined the policies and procedures in place to reduce the opportunity for improper
         use of sick leave by reviewing Office of Personnel Management and IRS requirements
         for sick leave use and documentation.
V.       Calculated the cost of potential sick leave abuse in terms of IRS salary and the potential
         revenue cost of sick leave on compliance results for revenue officers.6




5
  The IRS randomly selected 600 managers from of a population of 8,691, who were sent an email by the IRS
containing a link to the survey. Based on the survey results that we obtained on October 17, 2007, a total of
295 managers took the survey, resulting in a 95 percent confidence level with a precision rate of ±6 percent and a
6.75 percent expected error rate.
6
  Revenue officers are IRS employees who are responsible for collecting delinquent tax accounts and securing
delinquent tax returns.
                                                                                                            Page 19
               Lack of Compensation for Unused Sick Leave at Retirement Has
                   Contributed to Higher Use by Employees in the Federal
                               Employees Retirement System



                                                                               Appendix II

                 Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Small Business and Corporate
Programs)
Margaret E. Begg, Acting Assistant Inspector General for Audit (Small Business and
Corporate Programs)
Frank J. Dunleavy, Director
Van A. Warmke, Audit Manager
Meaghan R. Shannon, Lead Auditor
Earl C. Burney, Senior Auditor
Ted J. Lierl, Senior Auditor




                                                                                        Page 20
             Lack of Compensation for Unused Sick Leave at Retirement Has
                 Contributed to Higher Use by Employees in the Federal
                             Employees Retirement System



                                                                    Appendix III

                       Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Commissioner, Large and Mid-Size Business Division SE:LM
Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Tax Exempt and Government Entities Division SE:T
Commissioner, Wage and Investment Division SE:W
Deputy Human Capital Officer OS:HC
Chief, Agency-Wide Shared Services OS:A
Director, Employee Support Services OS:A:ESS
Director, Leadership, Education and Delivery Services OS:HC:LE
Director, Workforce Progression and Management Division OS:HC:WRT
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Deputy Commissioner for Operations Support OS
       Deputy Commissioner for Services and Enforcement SE
       Chief Human Capital Officer OS:HC




                                                                          Page 21
Lack of Compensation for Unused Sick Leave at Retirement Has
    Contributed to Higher Use by Employees in the Federal
                Employees Retirement System



                                                Appendix IV

      Results of Manager Survey




                                                      Page 22
Lack of Compensation for Unused Sick Leave at Retirement Has
    Contributed to Higher Use by Employees in the Federal
                Employees Retirement System




                                                      Page 23
Lack of Compensation for Unused Sick Leave at Retirement Has
    Contributed to Higher Use by Employees in the Federal
                Employees Retirement System




                                                      Page 24
Lack of Compensation for Unused Sick Leave at Retirement Has
    Contributed to Higher Use by Employees in the Federal
                Employees Retirement System




                                                      Page 25
Lack of Compensation for Unused Sick Leave at Retirement Has
    Contributed to Higher Use by Employees in the Federal
                Employees Retirement System




                                                      Page 26
Lack of Compensation for Unused Sick Leave at Retirement Has
    Contributed to Higher Use by Employees in the Federal
                Employees Retirement System




                                                      Page 27
Lack of Compensation for Unused Sick Leave at Retirement Has
    Contributed to Higher Use by Employees in the Federal
                Employees Retirement System




                                                      Page 28
Lack of Compensation for Unused Sick Leave at Retirement Has
    Contributed to Higher Use by Employees in the Federal
                Employees Retirement System




                                                      Page 29
Lack of Compensation for Unused Sick Leave at Retirement Has
    Contributed to Higher Use by Employees in the Federal
                Employees Retirement System




                                                      Page 30
Lack of Compensation for Unused Sick Leave at Retirement Has
    Contributed to Higher Use by Employees in the Federal
                Employees Retirement System




                                                      Page 31
   Lack of Compensation for Unused Sick Leave at Retirement Has
       Contributed to Higher Use by Employees in the Federal
                   Employees Retirement System



                                                   Appendix V

Management’s Response to the Draft Report




                                                         Page 32
Lack of Compensation for Unused Sick Leave at Retirement Has
    Contributed to Higher Use by Employees in the Federal
                Employees Retirement System




                                                      Page 33
Lack of Compensation for Unused Sick Leave at Retirement Has
    Contributed to Higher Use by Employees in the Federal
                Employees Retirement System




                                                      Page 34
